No. ___________________________

IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM 2020
ULIS HOWARD ALEXANDER
Petitioner,
V.
UNITED STATES OF AMERICA,
Respondent

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
FOR FILING PETITION FOR WRIT OF CERTIORARI
The Petitioner, Ulis Howard Alexander, asks leave to proceed in this Court, in forma
pauperis, pursuant to Rule 39 of the Rules of this Court. Petitioner has proceeded in forma pauperis
in both the United States District Court and the Fifth Circuit Court of Appeals. The undersigned
counsel has been appointed for petitioner under the Criminal Justice Act of 1964 as counsel in the
Fifth Circuit Court of Appeals.
Petitioner’s Petition for Writ of Certiorari is being filed contemporaneously with this Motion.
Respectfully submitted,
LAW OFFICE OF STAN SCHWIEGER

/s/ Stan Schwieger
Stan Schwieger
600 Austin Avenue, Suite 12
Waco, Texas 76701
(254) 752-5678
(254) 752-7792 -- Facsimile
State Bar No. 17880500
ATTORNEY FOR PETITIONER

